                                                                                     )
                                                   NATIONAL SCIENCE FOUNDArION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: 1-09090059                                                                       Page 1 of 1



         This investigation was initiated from an allegation that a professor! at a universiti received
         duplicate travel reimbursements, possibly related to an NSF award 3 •

         Our investigation found that the professor never received payment from any NSF award. The
         professor pled guilty to one count of felony grand theft related to travel reimbursements from
         state funds. The professor was sentenced to 2 days in jail, 2 years probation, and 80 days of
         labor. We were not related to the prosecution.

         In light of the above, no further investigative effort is necessary in this matter.

         This case is closed with no further action taken.




NSF O!G Fonn 2 (11102)
